TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   Tax Products and Computer Programs for
                     Individual Income Tax Returns Were
                          Accurately Updated for the
                              2006 Filing Season



                                              May 2006

                              Reference Number: 2006-40-088




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                  DEPARTMENT OF THE TREASURY
                                                         WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                   May 19, 2006


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – Tax Products and Computer Programs for
                               Individual Income Tax Returns Were Accurately Updated for the
                               2006 Filing Season (Audit # 200640015)

 This report presents the results of our review to determine whether the Internal Revenue
 Service (IRS) accurately updated tax products (such as forms, instructions, and publications) and
 computer programming for tax law changes that will affect the processing of individual income
 tax returns during the 2006 Filing Season.1 This audit focused on updates to tax products and
 requests for computer programming changes needed to implement new tax provisions,
 cost-of-living (inflation) adjustments, and changes to the optional standard mileage rates that
 affect Wage and Investment Division taxpayers’2 Tax Year (TY) 2005 individual income tax
 returns.
 President Bush signed into law the Gulf Opportunity Zone Act of 20053 just as we were
 completing our review. Because the IRS was still in the process of revising its tax products and
 computer systems affected by the legislation, we did not assess the IRS’ actions relative to this
 new legislation. However, we are evaluating the IRS’ implementation of this legislation during
 our review of the 2006 Filing Season.

 Synopsis
 Overall, the IRS accurately updated its tax products and computer programming to incorporate
 the tax law changes effective for TY 2005, with one exception. We identified 24 new provisions

 1
   The period from January through mid-April when most individual income tax returns are filed.
 2
   Taxpayers that report primarily wage and investment type income on U.S. Individual Income Tax Returns
 (Forms 1040, 1040A, or 1040EZ).
 3
   Pub. L. No. 109-135, 119 Stat. 2577 (to be codified in scattered sections of 26 U.S.C. and at 19 U.S.C. § 4033).
                  Tax Products and Computer Programs for Individual Income Tax
                   Returns Were Accurately Updated for the 2006 Filing Season



included in 6 pieces of tax legislation, 13 cost-of-living adjustments, and changes to the optional
standard mileage rates that affected TY 2005 individual income tax returns. As a result of these
changes, we identified 44 tax products that required updating. We reviewed 42 of the tax
products and determined they were accurately updated. Two of the tax products were not
available at the time of our review because they were affected by the late legislation.4
We identified and reviewed 6 requests for computer programming changes and 14 amendments
for subsequent computer programming changes. The IRS accurately initiated the computer
programming requests and updated its return processing programs for the new tax law provisions
and other adjustments or changes, with one exception.
The student loan interest deduction allows individual taxpayers to take a deduction for interest on
loans taken out to pay for qualified higher education expenses, such as college tuition. The
maximum deduction is $2,500, but it is phased out based on the taxpayer’s modified adjusted
gross income.5 For TY 2005, the modified adjusted gross income phaseout range is $105,000 to
$135,000 for taxpayers filing as married filing jointly. This phaseout was not reflected in any of
the requests or amendments for computer programming changes or in the computer
programming documentation for return processing programs. We informed IRS officials about
this condition in January 2006, and within 2 weeks the IRS corrected its computer programs to
accurately compute the deduction. The effect on taxpayers should be minimal because the
condition was corrected early and taxpayers claiming the student loan interest deduction
generally file their tax returns later in the filing season.

Recommendations
We made no recommendations in this report because the IRS corrected its computer programs to
accurately compute the student loan interest deduction claimed by taxpayers filing joint returns.

Response
IRS management reviewed the draft report and provided their concurrence with its contents via
email. Since there were no recommendations requiring a formal response, the IRS agreed to the
issuance of the report with no formal written response.
Please contact me at (202) 622-6510 if you have questions or Michael E. McKenney, Assistant
Inspector General for Audit (Wage and Investment Income Programs), at (202) 622-5916.


4
 We subsequently verified the two tax products were issued.
5
 Adjusted gross income is calculated after certain adjustments are made but before standard or itemized deductions
and personal exemptions are subtracted. Modified adjusted gross income is calculated without regard to certain
deductions or exclusions.
                                                                                                                 2
                     Tax Products and Computer Programs for Individual Income Tax
                      Returns Were Accurately Updated for the 2006 Filing Season




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Tax Forms, Instructions, and Publications for Tax Year 2005
          Were Accurately Updated.............................................................................Page 3
          Computer Programs for Processing Individual Income Tax Returns
          Were Accurately Updated.............................................................................Page 4

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 6
          Appendix II – Major Contributors to This Report ........................................Page 8
          Appendix III – Report Distribution List .......................................................Page 9
          Appendix IV – Overview of Tax Law Provisions and Other
          Tax Law Changes Examined During the Review.........................................Page 10
          Appendix V – List of Tax Products Examined.............................................Page 19
                   Tax Products and Computer Programs for Individual Income Tax
                    Returns Were Accurately Updated for the 2006 Filing Season




                                             Background

Each year, the Internal Revenue Service (IRS) faces the significant challenge of incorporating
new tax legislation into its tax products (such as forms, instructions, and publications) and
computer systems to ensure tax returns are accurately processed during the filing season.1
Meeting this challenge becomes more difficult when tax legislation is passed late in the year.
Preparing for the 2006 Filing Season was particularly difficult due to the new tax law legislation
enacted because of the devastation caused by Hurricanes Katrina, Rita, and Wilma that struck the
Gulf Coast States between August and October 2005. For
example, the Katrina Emergency Tax Relief Act of 2005,2
which was signed into law on September 23, 2005,                            Tax relief for
contained $3.3 billion in estimated tax relief for Fiscal             Hurricane Katrina alone is
Year 2006. President Bush signed into law the Gulf                   estimated at over $3 billion
                                 3
Opportunity Zone Act of 2005 just as we were completing                 for Fiscal Year 2006.
our review. Because the IRS was still in the process of
revising its tax products and computer systems affected by
the legislation, we did not assess the IRS’ actions relative to this new legislation. However, we
are evaluating the IRS’ implementation of this legislation during our review of the 2006 Filing
Season.
The IRS Legislative Analysis, Tracking, and Implementation Services function is responsible for
managing the IRS-wide implementation planning and monitoring of newly enacted tax
legislation. The Legislative Implementation Tracking System, an Intranet-based planning and
monitoring system, provides real-time status updates and has management information
capabilities. Two areas monitored on this System are:
    •    The revision of various tax forms, instructions, and publications. Annually, the IRS must
         revise or create new tax products to implement new legislation. The IRS function
         responsible for tax products is the Tax Forms and Publications Division. This Division
         originates and improves tax forms and publications, ensuring they are understandable and
         as easy to use as possible to enable taxpayers to meet their tax filing and payment
         obligations.
    •    The reprogramming of computer systems that are used to process tax returns. The
         process used for requesting computer programming changes is known as a Request for
         Information Services. The Requests are submitted to the IRS Modernization and

1
  The period from January through mid-April when most individual income tax returns are filed.
2
  Pub. L. No. 109-73, 119 Stat. 2016 (to be codified in scattered sections of 26 U.S.C.).
3
  Pub. L. No. 109-135, 119 Stat. 2577 (to be codified in scattered sections of 26 U.S.C. and at 19 U.S.C. § 4033).
                                                                                                             Page 1
                  Tax Products and Computer Programs for Individual Income Tax
                   Returns Were Accurately Updated for the 2006 Filing Season



        Information Technology Services (MITS) organization by the function responsible for the
        computer process being changed. The computer programming requests needed for
        implementing new tax law provisions during the annual processing of individual income
        tax returns normally should be identified and submitted to the MITS organization before
        the filing season.
                        Figure 1: Overview of Tax Law Implementation




     Source: Treasury Inspector General for Tax Administration analysis of IRS activities for implementing
     new tax laws.

This review was performed at the Wage and Investment (W&I) Division Headquarters in
Atlanta, Georgia; the Tax Forms and Publications Division Headquarters in Washington, D.C.;
the Submission Processing offices in Lanham, Maryland, and Cincinnati, Ohio; and the Austin
Submission Processing Site4 in Austin, Texas, during the period October 2005 through
February 2006. The audit was conducted in accordance with Government Auditing Standards.
Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.




4
 Submission Processing sites process paper and electronic submissions, correct errors, and forward data to the
Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                            Page 2
                  Tax Products and Computer Programs for Individual Income Tax
                   Returns Were Accurately Updated for the 2006 Filing Season




                                     Results of Review

Tax Forms, Instructions, and Publications for Tax Year 2005 Were
Accurately Updated
Overall, the IRS accurately updated its tax products for tax law changes that affect W&I Division
taxpayers’5 Tax Year (TY) 2005 individual income tax returns. During our review, we identified
24 new provisions included in 6 pieces of tax legislation that became effective in TY 2005. We
also identified 13 cost-of-living (inflation) adjustments and changes to the optional standard
mileage rates that were effective in TY 2005. Descriptions of these new provisions and other
changes for TY 2005 can be found in Appendix IV.
We identified a total of 44 tax products that required updates as a result of the new tax law
provisions and other adjustments or changes that became effective in TY 2005. Specifically, we
examined the new tax law provisions and queried the Legislative Implementation Tracking
System and identified 33 tax products requiring updates as a result of the new tax law provisions.
We also examined the inflation adjustments and changes to the standard mileage rates and
identified an additional 11 tax products requiring updates.
We reviewed 42 of the tax products and found that they were consistent with the provisions
enacted by Congress or with the information contained in the Internal Revenue Bulletins. The
IRS publications entitled Highlights of 2005 Tax Changes (Publication 553) and Individual
Retirement Arrangements (IRAs) (Publication 590) were issued subsequent to the completion of
our review. Passage of the Gulf Opportunity Zone Act of 2005 late in the year delayed their
issuance. Issuance of the Publications was delayed as long as possible to ensure they contained
the most up-to-date information. To help keep taxpayers informed of tax changes for 2005, the
IRS is providing updated articles and guidance under the “What’s Hot In Tax Forms,
Publications, and Other Tax Products” section of its web site, IRS.gov. Under the
circumstances, delaying issuance of these two Publications should not cause significant problems
for taxpayers.6 A list of the 42 tax products we examined can be found in Appendix V.




5
  W&I Division taxpayers are individuals that report primarily wage and investment type income on U.S. Individual
Income Tax Returns (Forms 1040, 1040A, or 1040EZ).
6
  We subsequently verified these two Publications were issued.
                                                                                                          Page 3
               Tax Products and Computer Programs for Individual Income Tax
                Returns Were Accurately Updated for the 2006 Filing Season



Computer Programs for Processing Individual Income Tax Returns
Were Accurately Updated
With one exception, the IRS accurately initiated computer programming requests to update
return processing programs for new tax law provisions and other adjustments or changes that
affect TY 2005 individual income tax returns.
Many of the new tax law provisions for TY 2005 include changes that require the IRS to update
its return processing computer programs to ensure taxpayers receive the correct deduction or
credit and comply with eligibility requirements. For example, Section 302 of the Katrina
Emergency Tax Relief Act of 2005 created an additional exemption for housing individuals
displaced by Hurricane Katrina. The provision applies to TYs 2005 and 2006. Several factors
are used in the computation of the allowable exemption amount claimed by the taxpayer. These
include:

   •   The additional exemption is $500 for providing housing to each individual displaced by
       Hurricane Katrina.

   •   The total for additional exemptions that can be claimed over the 2-year period is $2,000
       ($1,000 if married filing separately).

   •   The exemption may be claimed only once for each displaced individual for all taxable
       years.

   •   The taxpayer must provide the Taxpayer Identification Number of the displaced
       individual.

   •   The additional exemption is not subject to the income-based phaseouts applicable to
       personal exemptions.

   •   The additional exemption is allowed as a deduction in computing the alternative
       minimum taxable income.
It is essential that IRS computer programs are updated accurately for new tax provisions and
other adjustments or changes to the tax laws. According to the Joint Committee on Taxation, the
tax effect for Section 302 alone will be $96 million in Fiscal Year 2006.
We identified and reviewed six requests that were initiated for computer programming changes
needed to implement the new tax provisions and other adjustments or changes that affect
TY 2005 individual income tax returns. In addition, we identified and reviewed 14 amendments
for subsequent changes made to the computer programming requests. Analyses of the requests
and amendments determined the requested changes submitted by the W&I Division Submission
Processing function to the MITS organization were complete and accurate, with one exception.
In addition, our analyses of computer programming documentation for return processing
                                                                                          Page 4
                  Tax Products and Computer Programs for Individual Income Tax
                   Returns Were Accurately Updated for the 2006 Filing Season



programs determined the programs were accurately updated for the new tax provisions and other
adjustments or changes, with one exception.
The requests for computer changes and computer programming documentation did not contain a
required change for the student loan interest deduction, which allows individual taxpayers to take
a deduction for interest on loans taken out to pay for qualified higher education expenses such as
college tuition. Revenue Procedure 2004-717 included an inflation adjustment to the interest on
education loans (student loan interest deduction) allowed under Internal Revenue Code
Section 221.8 For TY 2005, the maximum student loan interest deduction is $2,500. This
deduction is phased out when modified adjusted gross income9 falls between $105,000 and
$135,000 for taxpayers filing as married filing jointly. This phaseout was not reflected in any of
the requests or amendments for computer programming changes or in the computer
programming documentation for return processing programs.
We informed IRS officials about this condition on January 11, 2006, and they submitted a
request for computer programming changes to the MITS organization. The computer
programming documentation for the student loan interest deduction was accurately updated and
implemented on January 23, 2006. The effect on taxpayers should be minimal because the
condition was corrected early in the filing season and taxpayers claiming the deduction generally
file their tax returns later in the filing season.




7
  Rev. Proc. 2004-71, 2004-50 I.R.B. 970.
8
  26 U.S.C. § 221 (2004).
9
  Adjusted gross income is calculated after certain adjustments are made but before standard or itemized deductions
and personal exemptions are subtracted. Modified adjusted gross income is calculated without regard to certain
deductions or exclusions.
                                                                                                            Page 5
                   Tax Products and Computer Programs for Individual Income Tax
                    Returns Were Accurately Updated for the 2006 Filing Season



                                                                                                   Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the Internal Revenue Service
(IRS) accurately updated tax products (such as forms, instructions, and publications) and
computer programming for tax law changes that affect the processing of individual income tax
returns during the 2006 Filing Season.1 The audit focused on updates to tax products and
computer programming required by provisions of the six pieces of tax legislation, inflation
adjustments for 2005, and changes to the optional standard mileage rates described in
Appendix IV. To accomplish our objective, we:
I.       Determined whether the IRS initiated changes to the tax products and the Requests for
         Information Services (RIS)2 needed to implement new tax law provisions that affect the
         processing of Wage and Investment (W&I) Division taxpayers’3 Tax Year (TY) 2005
         individual income tax returns.
         A. Reviewed the IRS Legislative Implementation Tracking System and identified the
            actions items requiring updates to IRS tax products and computer programs
            associated with tax law changes for TY 2005.
             1. Examined the action items in Steps I.B., I.C., and I.D. and verified the updates
                were properly implemented.
         B. Identified and reviewed 24 new tax law provisions, 13 inflation adjustments, and
            changes to the optional standard mileage rates that affect TY 2005 individual income
            tax returns.
         C. Identified 44 tax products that will require updating as a result of new tax law
            provisions and other adjustments or changes affecting TY 2005 returns. We
            examined 42 of the tax products (25 tax forms and instructions and 17 publications)
            and determined whether they were accurately updated.4
         D. Identified and reviewed 6 RISs and 14 RIS amendments initiated by the
            W&I Division and determined whether they addressed the new tax law provisions and
            other adjustments or changes identified in Step I.B.

1
  The period from January through mid-April when most individual income tax returns are filed.
2
  A RIS is used to request computer programming changes.
3
  Taxpayers that report primarily wage and investment type income on U.S. Individual Income Tax Returns
(Forms 1040, 1040A, or 1040EZ).
4
  Two of the tax products were not available at the time of our review because they were affected by the late
legislation. We subsequently verified the two tax products were issued.
                                                                                                                Page 6
                  Tax Products and Computer Programs for Individual Income Tax
                   Returns Were Accurately Updated for the 2006 Filing Season



II.     Determined whether the RISs initiated by the W&I Division completely and accurately
        reflect the new provisions of the tax laws and other adjustments or changes that affect
        TY 2005 individual income tax returns.
        A. Reviewed the new tax law provisions and other adjustments or changes identified in
           Step I.B. and determined the specific elements and criteria that required updating.
        B. Reviewed the RIS documentation and determined whether the necessary elements and
           criteria were included.
        C. Reviewed the Function Specification Packages5 that required updating as a result of
           the RISs identified and determined whether the necessary elements and criteria were
           accurately included in return processing program documentation.




5
  Functional Specification Packages provide text descriptions of the computer programs used by the IRS to process
tax returns.
                                                                                                           Page 7
              Tax Products and Computer Programs for Individual Income Tax
               Returns Were Accurately Updated for the 2006 Filing Season



                                                                           Appendix II

                Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Kyle R. Andersen, Acting Director
Scott A. Macfarlane, Director
Gary L. Young, Audit Manager
Sharon A. Buford, Lead Auditor
Karen C. Fulte, Senior Auditor
Tina M. Parmer, Senior Auditor
Lawrence N. White, Senior Auditor
Bonnie G. Shanks, Auditor




                                                                                    Page 8
              Tax Products and Computer Programs for Individual Income Tax
               Returns Were Accurately Updated for the 2006 Filing Season



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Customer Assistance, Relationships, and Education SE:W:CAR
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Director, Media and Publications SE:W:CAR:MP
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                 Page 9
                  Tax Products and Computer Programs for Individual Income Tax
                   Returns Were Accurately Updated for the 2006 Filing Season



                                                                                                Appendix IV

    Overview of Tax Law Provisions and Other Tax Law
          Changes Examined During the Review

The following information describes new tax law provisions and other changes that affect Tax
Year (TY) 2005 tax products1 or the processing of TY 2005 individual income tax returns filed
by Wage and Investment Division taxpayers2 during the 2006 Filing Season.3
Taxpayer Relief Act of 19974
This Act contained the following provision:
1)    Section 301 – Restoration of IRA [Individual Retirement Arrangement] Deduction for
      Certain Taxpayers. Provides for taxpayers covered by a retirement plan at work. For
      TY 2005, the deduction for contributions to a traditional IRA will be phased out over a
      $10,000 range in the taxpayer’s modified adjusted gross income (MAGI).5 For a married
      couple filing a joint return or a qualified widow(er), the deduction will begin to be phased
      out at a MAGI of $70,000. For single individuals or taxpayers filing as head of household,
      the deduction will begin to be phased out at a MAGI of $50,000.
Internal Revenue Service (IRS) Restructuring and Reform Act of 19986
This Act contained the following provision:
1)    Section 7004 – Modification of AGI [Adjusted Gross Income] Limit for Conversions to
      Roth IRAs. Provides that, beginning in TY 2005, required minimum distributions are
      excluded from a taxpayer’s MAGI for purposes of determining eligibility to convert from a
      traditional IRA to a Roth IRA.




1
  Defined as tax forms, instructions, and publications.
2
  Taxpayers that report primarily wage and investment type income on U.S. Individual Income Tax Returns
(Forms 1040, 1040A, or 1040EZ).
3
  The period from January through mid-April when most individual income tax returns are filed.
4
  Pub. L. No. 105-34, 111 Stat. 788 (codified as amended in scattered sections of 5 U.S.C., 19 U.S.C., 26 U.S.C.,
29 U.S.C., 31 U.S.C., 42 U.S.C., and 46 U.S.C. app.).
5
  Adjusted gross income is calculated after certain adjustments are made but before standard or itemized deductions
and personal exemptions are subtracted. Modified adjusted gross income is calculated without regard to certain
deductions or exclusions.
6
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                                                                                                          Page 10
                  Tax Products and Computer Programs for Individual Income Tax
                   Returns Were Accurately Updated for the 2006 Filing Season



Economic Growth and Tax Relief Reconciliation Act of 2001 (EGTRRA)7
The EGTRRA contained the following provision:
1)    Section 601 – Modification of IRA Contribution Limits. Provides that, for TY 2005, the
      maximum contribution limit to a traditional IRA is increased to $4,000. The maximum
      catchup contribution for individuals age 50 and over remains at $500 for TY 2005.
Working Families Tax Relief Act of 20048
This Act contained the following nine provisions:9
1)    Section 101 – Repeal of Scheduled Reductions in Child Tax Credit, Marriage Penalty
      Relief, and 10-Percent Rate Bracket. Provides for a repeal of the scheduled reductions in
      the Child Tax Credit, the standard deduction and 15-percent tax rate bracket for joint
      returns (marriage penalty relief), and 10-percent tax rate bracket. The items will generally
      remain at their TY 2004 levels through TY 2010, after which the EGTRRA sunset will
      apply the law in effect for TY 2000. Through TY 2010, the Child Tax Credit will remain
      at $1,000, both the standard deduction and width of the 15-percent bracket for joint filers
      will continue to be twice that for single filers, and the 10-percent bracket will continue to
      be indexed for inflation after TY 2003.
2)    Section 103 – 1-Year Extension of Minimum Tax Relief to Individuals. Provides for a
      1-year extension to TY 2005 of the Alternative Minimum Tax exemption amounts of
      $58,000 for a joint return, $40,250 for single returns, and $29,000 for a married person
      filing a separate return. These amounts were previously scheduled to decrease to $45,000,
      $33,750, and $22,500, respectively.
3)    Section 201 – Uniform Definition of Child, Etc.. Provides a uniform definition of
      “qualifying child” in Internal Revenue Code (I.R.C.) Section (§) 152(c)10 to be used in
      determining the tax benefits of the dependency exemption, Child Tax Credit, Earned
      Income Tax Credit (EITC), Credit for Child and Dependent Care Expenses, and Head of
      Household filing status. Each tax benefit has separate criteria for determining whether a
      taxpayer qualifies with respect to a particular child. Generally, a child is a qualifying child
      of a taxpayer if the child satisfies each of three tests: 1) the child has the same principal
      place of abode as the taxpayer for more than one-half of the taxable year (temporary
      absences due to illness, education, vacation, etc. are disregarded), 2) the child has a
      specified relationship to the taxpayer, and 3) the child has not yet attained a specified age.
      Except for the EITC, a child who provides over one-half of his or her own support may not

7
  Pub. L. No. 107-16, 115 Stat. 38 (2001).
8
  Pub. L. No. 108-311, 118 Stat. 1166 (2004).
9
  Source: IRS Legislative Affairs Update 2004-6, Summary of Provisions in the Working Families Tax Relief Act of
2004, P.L. 108-311 (October 2004).
10
   26 U.S.C. § 152 (2004).
                                                                                                        Page 11
                     Tax Products and Computer Programs for Individual Income Tax
                      Returns Were Accurately Updated for the 2006 Filing Season



         be a qualifying child. The prior-law support and gross income tests for determining
         whether an individual is a dependent no longer apply if the child meets the requirements of
         the uniform definition of qualifying child.
4)       Section 202 – Modifications of Definition of Head of Household. Modifies the
         qualifications for Head of Household filing status to incorporate the new uniform definition
         of a qualifying child contained in amended I.R.C. § 152(c). The prior-law requirement that
         the taxpayer provide over one-half of the cost of maintaining the household is retained. In
         addition, an individual who is not a qualifying child will continue to qualify the taxpayer
         for Head of Household filing status if the taxpayer is entitled to a dependency exemption
         for the individual or if the individual is the taxpayer’s father or mother and certain other
         requirements are satisfied.
5)       Section 203 – Modifications of Dependent Care Credit. Eliminates the prior-law
         requirement that a taxpayer maintain a household in order to claim the Credit for Child and
         Dependent Care Expenses. Generally, if other applicable requirements are satisfied, a
         taxpayer may claim the credit with respect to a qualifying individual who lives with the
         taxpayer for more than one-half of the year, even if the taxpayer does not provide more
         than one-half of the cost of maintaining the household. A qualifying individual includes
         (1) a qualifying child who is a dependent and under age 13 when the care was provided or
         (2) a taxpayer’s spouse or dependent who is physically or mentally unable to care for
         himself or herself and who has the same principle place of abode as the taxpayer for more
         than one-half of the year.
6)       Section 204 – Modifications of Child Tax Credit. Modifies I.R.C. § 24(c)(1)11 to
         incorporate the new uniform definition of qualifying child provided in amended
         I.R.C. § 152(c). In addition, the provision eliminates the prior-law requirement that a foster
         child and certain other children be cared for as the taxpayer’s own child.
7)       Section 205 – Modifications of [the] EITC. Modifies I.R.C. § 32(c)(3)12 to define a
         qualifying child for purposes of the EITC by reference to the new uniform definition of
         qualifying child provided in section I.R.C. § 152(c). The prior-law requirement that a
         foster child and certain other children be cared for as the taxpayer’s own child is
         eliminated. The tie-breaker rules applicable to the EITC remain unchanged and have been
         incorporated in the new uniform definition of a qualifying child in I.R.C. § 152. The
         provision retains the requirement that the taxpayer’s principal place of abode be in the
         United States.




11
     26 U.S.C. § 24 (2004).
12
     26 U.S.C. § 32 (2004).
                                                                                              Page 12
               Tax Products and Computer Programs for Individual Income Tax
                Returns Were Accurately Updated for the 2006 Filing Season



8)   Section 206 – Modifications of Deduction for Personal Exemption for Dependents.
     Removes from I.R.C. § 151(c)13 the rules and definitions that are no longer applicable or
     that are now provided in amended I.R.C. § 152(c).
9)   Section 207 – Technical and Conforming Amendments. Provides numerous and technical
     conforming changes to the I.R.C. to incorporate the new uniform definition of child.
American Jobs Creation Act of 200414
This Act contained the following provision:
1)   Section 884 – Donations of Motor Vehicles, Boats, and Airplanes. Amends
     I.R.C. §170(f)15 relating to the disallowance of a charitable contributions deduction by
     requiring taxpayers to substantiate contributions of used motor vehicles, boats, and
     airplanes with a claimed value of more than $500. Taxpayers must attach to their returns a
     written acknowledgement of the contribution from the donee organization.
Katrina Emergency Tax Relief Act of 200516
This Act contained the following 11 provisions:17
1)   Section 101 – Tax-Favored Withdrawals From Retirement Plans for Relief Relating to
     Hurricane Katrina. Provides an exception to the 10-percent early withdrawal tax in the
     case of a qualified Hurricane Katrina distribution up to $100,000 from a qualified
     retirement plan, a section 403(b) plan, a section 457(b) Governmental deferred
     compensation plan, or an IRA. In addition, income attributable to a qualified Hurricane
     Katrina distribution may be included in income ratably over 3 years, and, to the extent the
     distribution is eligible for tax-free rollover and is recontributed within a 3-year period, the
     amount recontributed will not be included in gross income.
2)   Section 102 – Recontributions of Withdrawals for Home Purchases Cancelled Due to
     Hurricane Katrina. Provides that qualified distributions from a section 401(k) plan, a
     section 403(b) plan, or an IRA to purchase a home in the Hurricane Katrina disaster area
     may be recontributed to an eligible retirement plan. Any amounts recontributed are treated
     as direct rollovers. The qualified distribution must have been received after
     February 28, 2005, and before August 29, 2005, in order to purchase or construct a
     principal residence in the Hurricane Katrina disaster area, but the residence was not


13
   26 U.S.C. § 151 (2004).
14
   Pub. L. No. 108-357, 118 Stat. 1418 (2004).
15
   26 U.S.C. § 170 (2004).
16
   Pub. L. No. 109-73, 119 Stat. 2016 (to be codified in scattered sections of 26 U.S.C.).
17
   Source: TECHNICAL EXPLANATION OF H.R. 3768, THE “KATRINA EMERGENCY TAX RELIEF ACT OF
2005” AS PASSED BY THE HOUSE AND THE SENATE ON SEPTEMBER 21, 2005, Joint Committee on Taxation,
JCX-69-05 (September 2005).
                                                                                             Page 13
                    Tax Products and Computer Programs for Individual Income Tax
                     Returns Were Accurately Updated for the 2006 Filing Season



         purchased or constructed due to Hurricane Katrina. To be treated as rollovers, the
         recontributions must be made between August 25, 2005, and February 28, 2006.
3)       Section 301 – Temporary Suspension of Limitations on Charitable Contributions. Provides
         that, in the case of an individual, the deduction for qualified contributions is allowed up to
         the amount by which the taxpayer’s contribution base exceeds the deduction for other
         charitable contributions. A taxpayer must elect this treatment for qualified contributions.
         Deductions elected to be treated under this section are not subject to the overall limit on
         itemized deductions under section 68. Contributions in excess of this amount are carried
         over to succeeding taxable years as contributions described in I.R.C. § 170(b)(1)(A),
         subject to the limitations of I.R.C. § 170(d)(1)(A)(i) and (ii). Qualified contributions are
         cash contributions made between August 28, 2005, and December 31, 2005, to a charitable
         organization described in I.R.C. § 170(b)(1)(A) (other than a supporting organization
         described in I.R.C. § 509(a)(3) or donor-advised funds).18
4)       Section 302 – Additional Exemption for Housing Hurricane Katrina Displaced Individuals.
         Provides an additional exemption of $500 for each Hurricane Katrina displaced individual.
         The maximum additional exemption amount is $2,000 for married taxpayers filing jointly,
         $1,000 for married taxpayers filing separately and $2,000 for all other taxpayers. The
         taxpayer may claim the exemption only 1 time for each displaced individual for all taxable
         years. A Hurricane Katrina displaced individual is a person (1) whose principal place of
         abode on August 28, 2005, was in the Hurricane Katrina disaster area; (2) who is displaced
         from such abode; (3) whose abode, if located within the disaster area but outside the core
         disaster area the abode must be damaged by Hurricane Katrina, or who was evacuated from
         the abode because of Hurricane Katrina, and (4) who is provided housing free of charge in
         the taxpayer’s principal residence for a period of 60 consecutive days that ends in the
         taxable year in which the exemption is claimed. The displaced individual cannot be the
         taxpayer’s spouse or dependent. The taxpayer cannot receive any compensation from any
         source for providing housing to the displaced individual. The taxpayer must provide the
         Taxpayer Identification Number of the displaced individual.
5)       Section 303 – Increase in Standard Mileage Rate for Charitable Use of Vehicles. Allows
         taxpayers who use vehicles to provide charitable services related to Hurricane Katrina to
         compute their charitable mileage deduction using 70 percent of the business mileage rate in
         effect on the date of the contribution. This amount is 29 cents a mile after
         August 24, 2005, and 34 cents a mile after August 31, 2005.
6)       Section 304 – Mileage Reimbursements to Charitable Volunteers Excluded from Gross
         Income. Provides that reimbursements by an organization described in I.R.C. § 170(c) to
         taxpayers who use their vehicles to provide charitable services related to Hurricane Katrina


18
     26 U.S.C. § 509 (2004).
                                                                                               Page 14
               Tax Products and Computer Programs for Individual Income Tax
                Returns Were Accurately Updated for the 2006 Filing Season



     are excludable from gross income, up to an amount that does not exceed the standard
     mileage rate for business use.
7)   Section 401 – Exclusion of Certain Cancellations of Indebtedness by Reason of
     Hurricane Katrina. Provides that cancellation of indebtedness income from the discharge
     of certain nonbusiness indebtedness of qualifying individuals by certain creditors
     (“applicable entities” as defined in section 6050P(c)) after August 24, 2005, and before
     January 1, 2007, will be excluded from gross income if the individual’s principal home was
     located in the Hurricane Katrina core disaster area or in the Hurricane Katrina disaster area
     if the individual suffered an economic loss as a result of Hurricane Katrina. An individual
     who excludes cancellation of indebtedness income from gross income by reason of section
     401 is required to reduce his or her tax attributes by the amount of the excluded income.
8)   Section 402 – Suspension of Certain Limitations on Personal Casualty Losses. Provides
     that casualty or theft losses of personal-use property that are attributable to Hurricane
     Katrina need not exceed the $100-per-casualty or -theft limitation. In addition, casualty or
     theft losses of personal-use property that are attributable to Hurricane Katrina are
     disregarded for purposes of applying the 10-percent threshold to other personal casualty or
     theft losses.
9)   Section 405 – Extension of Replacement Period for Nonrecognition of Gain. Extends from
     2 years to 5 years the replacement period for postponing gain realized on property located
     in the Hurricane Katrina disaster area and converted after August 24, 2005, as a result of
     Hurricane Katrina if substantially all of the use of the replacement property is in the
     Hurricane Katrina disaster area.
10) Section 406 – Special Look-Back Rule for Determining the EITC and the Refundable Child
    Credit. Permits a qualified individual to elect to calculate both the EITC and the
    refundable Additional Child Tax Credit for the taxable year that includes August 25, 2005,
    using the earned income from the prior taxable year. This election can be made only if the
    qualified individual’s earned income for the taxable year that includes August 25, 2005, is
    less than earned income for the preceding taxable year.
11) Section 407 – Secretarial Authority to Make Adjustments Regarding Taxpayer and
    Dependency Status for Taxpayers Affected by Hurricane Katrina. Authorizes the Secretary
    of the Treasury or the Secretary’s delegate to make adjustments in the application of the
    internal revenue laws to ensure taxpayers do not lose any deduction or credit or experience
    a change of filing status by reason of temporary relocations caused by Hurricane Katrina.
    For example, such adjustments may include addressing the residency requirements relating
    to the exemption for dependents.




                                                                                          Page 15
                 Tax Products and Computer Programs for Individual Income Tax
                  Returns Were Accurately Updated for the 2006 Filing Season



Cost-of-Living (Inflation) Adjustments for TY 2005
Revenue Procedure 2004-7119 contained the following 13 inflation-adjusted items:
1)    Tax Rate Tables. For TY 2005, the Tax Rate Tables under I.R.C. § 120 were revised by
      adjusting the taxable income brackets for each filing status. The adjusted Tax Rate Tables
      for individuals are included in the TY 2005 Form 1040 Instructions.
2)    Adoption Credit. For TY 2005, the maximum Adoption Credit under I.R.C. § 2321 is
      $10,630 per child. The maximum credit begins to phase out when the taxpayer’s MAGI
      reaches $159,450 and is completely phased out when the MAGI exceeds $199,450.
3)    Child Tax Credit. For TY 2005, the value used in I.R.C. § 24(d)(1)(B)(i) in determining
      the amount of the Additional Child Tax Credit that may be refundable is $11,000.
4)    Hope and Lifetime Learning Credits. For TY 2005, the $1,500 maximum Hope Credit for
      each eligible student and the $2,000 maximum Lifetime Learning Credit for each return
      begin to phase out when the taxpayer’s MAGI reaches $43,000 ($87,000 for joint returns)
      and are completely phased out when the MAGI reaches $53,000 ($107,000 for joint
      returns). If a student is eligible for both credits in TY 2005, the taxpayer can claim either
      credit but not both.
5)    EITC. For TY 2005, the earned income amounts,22 maximum amounts of EITC, and
      threshold amounts for phase out of the credit under I.R.C. § 32(b) were increased. The
      adjusted amounts are reflected in the 2005 Earned Income Credit (EIC) Table included the
      TY 2005 Form 1040 Instructions. The investment income amount under I.R.C. § 32(i)(1)
      was increased to $2,700.
6)    Standard Deduction. For TY 2005, the standard deduction amounts under
      I.R.C. § 63(c)(2)23 were increased to $5,000 for Single or Married Filing Separately filing
      statuses, $7,300 for Head of Household filing status, and $10,000 for Married Filing Jointly
      or Surviving Spouse filing statuses. The standard deduction amount under
      I.R.C. § 63(c)(5) for an individual who may be claimed as a dependent by another taxpayer
      may not exceed the greater of $800 or the sum of $250 and the individual’s earned income.
      The additional standard deduction amounts under I.R.C. § 63(f) for the aged and for the
      blind are $1,000 each or $1,250 each if the individual is also unmarried and not a surviving
      spouse.



19
   Rev. Proc. 2004-71, 2004-50 I.R.B. 970.
20
   26 U.S.C. § 1 (2004).
21
   26 U.S.C. § 23 (2004).
22
   The earned income amount is the amount of earned income at or above which the maximum amount of the EITC
is allowed.
23
   26 U.S.C. § 63 (2004).
                                                                                                   Page 16
                  Tax Products and Computer Programs for Individual Income Tax
                   Returns Were Accurately Updated for the 2006 Filing Season



7)    Overall Limitation on Itemized Deductions. For TY 2005, the total amount of otherwise
      allowable itemized deductions is reduced under I.R.C. § 6824 when a taxpayer’s adjusted
      gross income exceeds $145,950 ($72,975 if married filing separately).
8)    Income from United States Savings Bonds for Taxpayers Who Pay Qualified Higher
      Education Expenses. For TY 2005, the exclusion under I.R.C. § 13525 (regarding income
      from United States savings bonds for taxpayers who pay qualified higher education
      expenses) begins to phase out when the taxpayer’s MAGI reaches $61,200 ($91,850 for
      joint returns) and is completely phased out when the MAGI exceeds $76,200 ($121,850 for
      joint returns).
9)    Personal Exemption. For TY 2005, the personal exemption under I.R.C. § 151(d)26 is
      $3,200.
10) Eligible Long-Term Care Premiums. For TY 2005, the limitations under
    I.R.C. § 213(d)(10)27 (regarding eligible long-term care premiums includible in the term
    “medical care”) are as follows: $270 if age is 40 or less before the close of the taxable
    year, $510 if age is 41 to 50 before the close of the taxable year, $1,020 if age is 51 to
    60 before the close of the taxable year, $2,720 if age is 61 to 70 before the close of the
    taxable year, and $3,400 if age is more than 70.
11) Medical Savings Accounts. For TY 2005, the term “high-deductible health plan” as
    defined in I.R.C. § 220(c)(2)(A)28 for self-only coverage means a health plan that has an
    annual deductible that is not less than $1,750 and not more than $2,650 and under which
    the annual out-of-pocket expenses required to by paid (other than premiums) for covered
    benefits do not exceed $3,500. The amounts for family coverage are $3,500, $5,250, and
    $6,450, respectively.
12) Interest on Education Loans. For TY 2005, the $2,500 maximum deduction for interest
    paid on qualified education loans under I.R.C. § 22129 begins to phase out when the
    taxpayer’s MAGI reaches $50,000 ($105,000 for joint returns) and is completely phased
    out when the MAGI exceeds $65,000 ($135,000 for joint returns).
13) Health Savings Accounts. For TY 2005, the monthly contribution limit on deductions
    under I.R.C. § 223(b)(2)(A)30 for an individual with self-only coverage under a
    high-deductible plan as of the first day of such month is 1/12 of the lesser of (1) the annual
    deductible or (2) $2,650 ($5,250 for an individual with family coverage). A

24
   26 U.S.C. § 68 (2004).
25
   26 U.S.C. § 135 (2004).
26
   26 U.S.C. § 151 (2004).
27
   26 U.S.C. § 213 (2004).
28
   26 U.S.C. § 220 (2004).
29
   26 U.S.C. § 221 (2004).
30
   26 U.S.C. § 223 (2004).
                                                                                           Page 17
                    Tax Products and Computer Programs for Individual Income Tax
                     Returns Were Accurately Updated for the 2006 Filing Season



         high-deductible health plan is defined under I.R.C. § 223(c)(2)(A) as a health plan with an
         annual deductible that is not less than $1,000 for self-only coverage or $2,000 for family
         coverage and the annual out-of-pocket expenses (deductibles, co-payments, and other
         amounts, but not premiums) do not exceed $5,100 for self-only coverage or $10,200 for
         family coverage.
Changes to the Optional Standard Mileage Rates for TY 2005
1)       Revenue Procedure 2004-6431 provides the optional standard mileage rates to use in
         computing the deductible costs of operating an automobile for business, charitable,
         medical, or moving expense purposes for TY 2005. The rates are:
         •   40.5 cents for business use.
         •   14 cents for charitable use.
         •   15 cents for medical or moving use.
2)       IRS Announcement 2005-7132 provides revised optional standard mileage rates for
         business, medical, and moving expenses purposes that are effective on September 1, 2005.
         The revised rates are:
         •   48.5 cents for business use.
         •   22 cents for medical or moving use.




31
     Rev. Proc. 2004-64, 2004-49 I.R.B. 898.
32
     2005-41 I.R.B. 714-15.




                                                                                               Page 18
                Tax Products and Computer Programs for Individual Income Tax
                 Returns Were Accurately Updated for the 2006 Filing Season



                                                                            Appendix V

                   List of Tax Products Examined

                                       Tax Forms
   Tax Product                           Title
 1. Form 1040                   U.S. Individual Income Tax Return
 2. Form 1040, Schedules A & B Schedule A–Itemized Deductions
                               Schedule B–Interest and Ordinary Dividends
 3. Form 1040, Schedule EIC     Earned Income Credit
 4. Form 1040A                  U.S. Individual Income Tax Return
 5. Form 1040-ES                Estimated Tax for Individuals
 6. Form 1040EZ                 Income Tax Return for Single and Joint Filers With
                                No Dependents
 7. Form 1098-C                 Contributions of Motor Vehicles, Boats, and Airplanes
 8. Form 6251                   Alternative Minimum Tax–Individuals
 9. Form 8283                   Noncash Charitable Contributions
10. Form W-5                    Earned Income Credit Advance Payment Certificate
11. Form 8812                   Additional Child Tax Credit
12. Form 8815                   Exclusion of Interest From Series EE and I U.S. Savings
                                Bonds Issued After 1989 (For Filers With Qualified Higher
                                Education Expenses)
13. Form 8839                   Qualified Adoption Expenses
14. Form 8863                   Education Credits (Hope and Lifetime Learning Credits)




                                                                                     Page 19
                    Tax Products and Computer Programs for Individual Income Tax
                     Returns Were Accurately Updated for the 2006 Filing Season



                                         Tax Form Instructions
      Tax Product                                 Title
    1. Form 1040                         2005 1040 Instructions
    2. Form 1040, Schedules A & B 2005 Instructions for Schedule A, Itemized Deductions and
                                  for Schedule B, Interest and Ordinary Dividends
    3. Form 1040A                        2005 1040A Instructions
    4. Form 1040A, Schedule 2            2005 Instructions for Schedule 2 (Form 1040A), Child and
                                         Dependent Care Expenses for Form 1040A Filers
    5. Form 1040EZ                       2005 1040EZ Instructions
    6. Form 2441                         2005 Instructions for Form 2441, Child and Dependent Care
                                         Expenses
    7. Form 4684                         2005 Instructions for Form 4684, Casualties and Thefts
    8. Form 5329                         2005 Instructions for Form 5329, Additional Taxes on
                                         Qualified Plans (Including IRAs1) and Other Tax-Favored
                                         Accounts
    9. Form 8283                         2005 Instructions for Form 8283, Noncash Charitable
                                         Contributions
10. Form 8606                            2005 Instructions for Form 8606, Nondeductible IRAs
11. Form 8839                            2005 Instructions for Form 8839, Qualified Adoption
                                         Expenses

                                              Tax Products

      Tax Product                                 Title
    1. Publication 17                    Your Federal Income Tax For Individuals
    2. Publication 54                    Tax Guide for U.S. Citizens and Resident Aliens Abroad
    3. Publication 501                   Exemptions, Standard Deduction, and Filing Information
    4. Publication 502                   Medical and Dental Expenses (Including the Health
                                         Coverage Tax Credit)
    5. Publication 503                   Child and Dependent Care Expenses


1
    Individual Retirement Arrangement.
                                                                                               Page 20
              Tax Products and Computer Programs for Individual Income Tax
               Returns Were Accurately Updated for the 2006 Filing Season



 6. Publication 504         Divorced or Separated Individuals
 7. Publication 526         Charitable Contributions
 8. Publication 550         Investment Income and Expenses (Including Capital Gains
                            and Losses)
 9. Publication 554         Older Americans’ Tax Guide
10. Publication 596         Earned Income Credit (EIC)
11. Publication 596SP       Credito por Ingreso del Trabajo (Spanish-speaking version
                            of Publication 596)
12. Publication 907         Tax Highlights for Persons with Disabilities
13. Publication 929         Tax Rules for Children and Dependents
14. Publication 969         Health Savings Accounts and Other Tax-Favored Health
                            Plans
15. Publication 970         Tax Benefits for Education
16. Publication 972         Child Tax Credit
17. Publication 4492        Information for Taxpayers Affected by Hurricanes Katrina,
                            Rita, and Wilma




                                                                               Page 21
